CERTIFICATE OF SERVICE
No.

Murpny J. PAINTER

Petitioner
V.
SHANE EVANS
Respondent

I certify that three copies of this Petition for Writ of Certiorari have been
served by United States Postal Service First Class Mail, postage prepaid on:

Jennie P. Pellegrin Ross Dooley

NEUNERPATE Roedel Parsons

Post Office Drawer 52828 8440 Jefferson Hwy, Suite 301
Lafayette, LA 70505 Baton Rouge, LA 70809

Counsel for Brant Thompson Counsel for State of Louisiana through

Dept of Revenue and ATC, Louis
Thompson and Trevor McDonald.

Preston Castille Jr.

Ne’Shira D. Millender

450 Laurel Street, 8th Floor

Baton Rouge, LA 70801

Counsel for Shane Evans, Stephen
Street, and State of Louisiana, through
The Office of Inspector General

 

28 U.S.C. §1746 DECLARATION

I declare under penalty of perjury that the foregoing is true and correct. Executed
on the 8 day of July, 2019.

   

Robert N. é

 

Ssuiluz
